        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
Los Alamos National Laboratory
Environmental Management
Activities Funded by the Recovery
Act




OAS-RA-11-15                        August 2011
                                 Department of Energy
                                   Washington, DC 20585
                                        August 25, 2011



MEMORANDUM FOR THE MANAGER, LOS ALAMOS SITE OFFICE, NATIONAL
               NUCLEAR SECURITY ADMINISTRATION

FROM:                    George W. Collard
                         Assistant Inspector General
                          for Audits
SUBJECT:                INFORMATION: Audit Report on "Los Alamos National Laboratory
                        Environmental Management Activities Funded by the Recovery Act"

BACKGROUND

In February 2009, the American Recovery and Reinvestment Act of 2009 (Recovery Act) was
enacted. The Department of Energy's (Department) National Nuclear Security Administration
(NNSA) received approximately $212 million in Recovery Act funds from the Office of
Environmental Management (EM) for legacy environmental remediation activities at Los
Alamos National Laboratory (Los Alamos). NNSA's Los Alamos Site Office (Site Office) is
responsible for oversight of the legacy cleanup projects funded by the Recovery Act at Los
Alamos' Technical Area 21 (TA-21) site, including:

       The Delta Prime East and West project – a $58 million project to demolish 18
       radiological and industrial facilities and remove slabs and surface contamination;

       The Tritium Systems Test and Assembly project – a $14.8 million project to demolish 5
       radiological and industrial facilities and remove the slabs and surface contamination; and,

       The Material Disposal Area B (MDA-B) project – a $93.5 million project to excavate
       low-level nuclear waste and to restore the site.

The Recovery Act funded work is part of an estimated $2.2 billion effort to remediate Los
Alamos by December 2015, as required by a Consent Order agreement with the New Mexico
Environment Department (NMED). Due to the significant investment in these projects and the
importance of these projects to remediating nuclear waste at Los Alamos, we initiated this audit
to determine whether the Department had effectively managed the Los Alamos TA-21 projects
and achieved the goals and objectives of the Recovery Act.

RESULTS OF AUDIT

Our testing did not reveal any significant issues concerning Los Alamos' compliance with
Recovery Act requirements for reporting, job creation, segregation of funds, and flow down of
requirements to subcontracts. In addition, we determined that the Delta Prime East and West,
and Tritium Systems Test and Assembly projects were completed ahead of schedule and under
budget. MDA-B project costs had increased and the project schedule had slipped, however, due
to reasons largely beyond Los Alamos' control, such as encountering greater than anticipated
waste volumes and hazards.

Although MDA-B project cost increases and schedule slippages were driven by factors generally
beyond its control, we noted that Los Alamos had not:

       Established a management reserve to fund cost increases and schedule slippages caused
       by MDA-B project risks that was commensurate with the level of uncertainty that existed
       about the type and amount of waste to be remediated;

       Fully implemented the established baseline change control process for the Los Alamos
       TA-21 Recovery Act projects to ensure that project scope, schedule, and cost changes
       were documented and formally resolved; and,

       Updated the Recovery Act Project Execution Plan as required.

Due to MDA-B project's cost and schedule increases, Los Alamos was unable to meet a Consent
Order milestone to submit a remedy completion report to NMED on December 31, 2010. In
November 2010, Los Alamos asked the NMED for an extension for completing the report and in
December 2010, the NMED extended the milestone to August 31, 2011.

Although we did not find any significant issues with Los Alamos' compliance with Recovery Act
reporting requirements, we did identify duplicate reporting of four subcontract awards for the
MDA-B project to Recovery.gov, the U.S. Government's official website used to track Recovery
Act funds. As a result of our review, Los Alamos corrected the discrepancies in its subsequent
quarterly submission to Recovery.gov.

                                       Management Reserve

NNSA's and Los Alamos' allocation of funds to management reserve for the MDA-B project was
not commensurate with the level of risk for the project. Management reserve is an integral part
of the Department's capital asset project risk management process, providing project managers
with the funds necessary to respond to project risks and uncertainties. Our review of the October
2009 risk analysis for the MDA-B project disclosed that Los Alamos identified a low risk factor
for "Higher quantities than planned of nuclear materials or hazardous chemicals are encountered
exceeding the HC2 (hazard category) threshold," even though it recognized that there was
significant uncertainty about the volume and hazards of the waste to be remediated. In
November 2009, EM's Office of Cost Estimating and Analysis prepared an Independent Review
and Validation (IR&V) Report that concluded the established management reserve for the project
of $1.2 million did not represent the true risk (programmatic, schedule, technical and cost) of the
project. In particular, there was much uncertainty about the volume and hazards of the waste
buried at the site. In response to the IR&V, Los Alamos increased the management reserve by
$6.2 million to a total of $7.4 million prior to establishing the initial project baseline in January
2010.


                                                 2
Although it increased the management reserve, Los Alamos did not revise its risk assessment nor
make further increases in the management reserve to reflect increased knowledge about the types
and amounts of waste to be remediated as work progressed in 2010. Specifically, MDA-B
excavation activities during August through October 2010, uncovered nuclear material and
hazardous chemicals that required work stoppages totaling 42 days and process and equipment
modifications due to the discovery of waste that exceeded the "planned for" hazard category.

A Site Office official stated that there had been a series of miscalculations and overly optimistic
projections for the project, including having to excavate about 25 percent more material with
over twice the amount of radioactivity than originally planned. As of December 2010, Los
Alamos had expended 87 percent of the available management reserve. Los Alamos also
projected a budget shortfall of $26.8 million to complete the MDA-B project. Los Alamos did
not increase the management reserve to cover increased costs until March 2011, at which time it
reassessed project risks and added $787,000 to the management reserve. The Department's risk
management guidance (DOE Guide 413.3-7), requires that managers assign a rating
commensurate with the risk associated with a project. Appropriate risk ratings are vital in
establishing management reserve funds necessary to ensure completion of the projects.

To cover the shortfall, Los Alamos identified $17 million from savings and unused management
reserve from other Recovery Act projects and retroactively applied a capital project General and
Administrative (G&A) rate to the project, which in effect, freed up an additional $8.6 million.
Historically, Los Alamos considered environmental cleanup work as an "operating activity"
based on the type of appropriation and applied a 27 percent operating G&A rate. However, in
January 2011, Los Alamos proposed using the capital asset project rate of six percent for the
MDA-B project, citing Department Order 413.3B which states that capital assets include
environmental remediation of land to make it useful. Los Alamos stated that it had typically not
considered environmental remediation work for the capital asset G&A rate, since the work does
not result in the creation of an asset that would be placed on the balance sheet.

The NNSA Field Chief Financial Officer (NNSA CFO), however, did not recommend approval
of the G&A rate change due to concerns about possible Cost Accounting Standards violations in
that the reduced G&A rate may be too low to adequately allocate costs and it would inequitably
shift administrative costs to other programs. The NNSA CFO was also concerned with the
appearance that Los Alamos was mitigating program performance issues through accounting
adjustments. On February 17, 2011, the Site Office contracting officer determined that the
reduced rate was appropriate and immaterial in the context of Los Alamos' annual G&A account.
The contracting officer noted, however, that the NNSA CFO had determined that Los Alamos
needed to re-evaluate its entire G&A structure by 2013. On March 2, 2011, the Site Office
approved a new project baseline which incorporated and accounted for the $8.6 million in
reduced G&A costs.

                                     Baseline Change Control

Los Alamos had not fully implemented the established baseline change control process for the
TA-21 Recovery Act projects. According to Department Manual 413.3-1, Program
Management for the Acquisition of Capital Assets, the objective of the baseline change control



                                                 3
process is to ensure that project scope, schedule, and cost changes are documented and formally
resolved1. We found, however, that work associated with baseline changes for the Los Alamos
TA-21 Recovery Act projects was initiated without approved Baseline Change Proposals (BCPs)
or written work authorization. As of August 2010, our review of 26 BCPs disclosed six BCPs
(23 percent), including two for the MDA-B project, were not approved within the month that
work was started. For example, on May 3, 2010, Los Alamos started work on design changes to
the fixed enclosures at MDA-B. However, this work, which involved project scope and budget
revisions, was not approved by the Site Office until July 27, 2010, nearly three months after the
start of work for this activity. According to Los Alamos' Baseline Change Control Procedure,
new work is not to begin until the BCP is approved, unless the project manager has provided
written work authorization.

Similarly, an August 2010 Site Office assessment of the Earned Value Management System
(EVMS) for Los Alamos projects, including Recovery Act projects, reported that work was
performed without approved BCPs or written authorization. EVMS provides a method for
measuring project cost and schedule performance that compares budgeted costs with actual costs.
Initiating work without approved BCPs can distort EVMS data, which provides project managers
with visibility into cost, schedule, and technical progress to measure and manage project
performance. According to Department Manual 413.3-1, documenting and controlling changes
provides better risk mitigation, supports better decision making, and is necessary for accurate
performance reporting, including Earned Value Management.

The Site Office asserted that the baseline change control process as described in the Recovery
Act Project Execution Plan (Plan) was adequate and was followed in principle, but recognized
that the formality called for in the Plan was lacking. Los Alamos also stated that the project
team attends "trend" meetings to discuss the merits of identified trends and their potential
impacts and therefore, both Los Alamos and the Site Office are cognizant of the trends and their
impacts and are provided the opportunity to comment on the need to further develop the trends
for incorporation into the project baseline. While the "trend" meetings may provide information
concerning needed BCP changes, Los Alamos Trend Program work instructions also require
generating the necessary change control actions and obtain proper approvals prior to
incorporating trends into the baseline. Los Alamos project management did acknowledge that
efforts to approve BCPs prior to work commencement, as described above, were not always
successful.

                                           Project Execution Plan

The Recovery Act Project Execution Plan had not been updated at least biannually as required.
Information in the Plan, such as project schedules and cost plans had not been revised since the
Plan's inception in January 2010. We found that significant changes to the MDA-B project
schedule were not documented in the Plan, including two project re-planning actions approved in
March 2010 and March 2011, and several other schedule and design changes. In addition, the

1
  On November 29, 2010, the Department revised its guidance related to project management by issuing Department
Order 413.3B. The revisions contained similar assurances regarding change control. Specifically, the Order stated
that change control ensures that project changes are identified, evaluated, coordinated, controlled, reviewed,
approved/disapproved, and documented in a manner that best serves the project.


                                                        4
project experienced multiple shut downs due to encountering contaminated materials above the
planned hazard classification level. These events represented major project changes, which
warranted updating the Plan. The Federal Project Director (Director) is responsible for ensuring
distribution of the updated Plan to all project team members and other involved organizations, as
necessary. An up-to-date project management plan is important since it is the core document for
management of a project in that it includes an accurate reflection of how the project is to be
accomplished, resource requirements, technical considerations, risk management, configuration
management, and roles and responsibilities. The Director stated that the Plan was under revision
at the time of this review.

ACTIONS TAKEN

NNSA and Los Alamos management have taken action to improve project management of the
Recovery Act funded Los Alamos TA-21 projects. NNSA informed us that the Site Office
Manager and other senior staff have instituted weekly meetings with the MDA-B project staff to
increase federal oversight and ensure that Los Alamos and its subcontractors are properly
communicating and managing technical risks. Management also told us that the management
reserve has been reevaluated and that remaining risks were again quantified and included in the
baseline change control process. Regarding the baseline change control process, management
stated that the process is being updated to reflect a Site Office Change Control Board that is
commensurate with change actions on projects consistent with principles of Department Order
413.3B and Energy Systems Acquisition Advisory Board Processes. Change control is also
being reviewed and integrated within the Site Office's EVMS procedures and such procedures
are being updated accordingly. In the interim, all change actions on Recovery Act projects are
raised to the Deputy Manager level at the Site Office for final endorsement. Finally,
management stated that Los Alamos is working closely with the Site Office to update the Project
Execution Plan.

The actions initiated by Los Alamos and NNSA should, if successfully implemented, resolve the
project management concerns discussed in this report. However, continued effort is needed to
ensure adequate allocation of administrative costs.

RECOMMENDATION

The Site Office estimates that it will cost over $1.5 billion to complete the remaining cleanup
work, of which $358 million was requested for Fiscal Year 2012. In light of the significant
amount of funding needed to complete environmental cleanup work at the site under the Consent
Order agreement, NNSA and Los Alamos need to ensure that G&A costs are properly allocated
among projects.

To this end, we recommend that the Manager, Los Alamos Site Office, ensure that Los Alamos
completes the review of its G&A rate structure by 2013.

MANAGEMENT REACTION AND AUDITOR RESPONSE

Management stated that the G&A tax rate structure is under review by the NNSA CFO office
and should be completed in 2013. Management's comments were responsive to our
recommendation.
                                                5
Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Administrator, National Nuclear Security Administration
      Acting Assistant Secretary for Environmental Management
      Chief of Staff




                                           6
                                                                                    Attachment


SCOPE AND METHODOLOGY

This audit was performed between June 2010 and July 2011, at the Los Alamos National
Laboratory (Los Alamos) and the Los Alamos Site Office, located in Los Alamos, New Mexico;
and, the National Nuclear Security Administration (NNSA) in Albuquerque, New Mexico. Our
scope encompassed approximately $166 million of American Recovery and Reinvestment Act of
2009 (Recovery Act) funds provided for environmental cleanup activities at the Los Alamos
Technical Area 21 (TA-21) site. Our scope did not include a $45 million Groundwater
Monitoring Wells project, which is also funded through the Recovery Act. To accomplish the
audit objective, we:

        Reviewed and evaluated documentation, such as monthly project management reports,
        change control requests, and project implementation plans, related to the environmental
        management work at the Los Alamos TA-21 site;

        Judgmentally selected subcontracts awarded for the environmental management work
        and reviewed the subcontracts for the presence of required contract clauses;

        Judgmentally selected Recovery Act transactions recorded by Los Alamos and traced
        them to supporting vendor invoices;

        Reviewed data reported by Los Alamos to the FederalReporting.Gov website; and,

       Held discussions with personnel from the Los Alamos Site Office, Los Alamos, and
       NNSA.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. The audit included tests of
controls and compliance with laws and regulations necessary to satisfy the audit objective.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. During the audit, we assessed the
Department's compliance with the Government Performance and Results Act of 1993 and found
that specific performance measures related to the Los Alamos TA-21 Recovery Act projects
were established. We did, however, note that performance measures relevant to the projects
were not specific to waste management. We utilized computer-processed data to identify the
population of costs spent using Recovery Act funding in order to accomplish our audit objective.
Based on our comparisons of computer-processed data to supporting documentation, we
determined that the data critical to achieving our audit objective were sufficiently reliable.

Management waived an exit conference.




                                               7
                                                                OIG Report No. OAS-RA-11-15


                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
